Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    WOUND CARE SUPPLIES:

OPERATION RESTORE TRUST DATA





                  p$ SERVICE3   “G.
             .#
                                   q

         $
                                       JUNE  GIBBS BROWN
         2                             Inspector General

         ‘2

          %
 #
          ~++                                 OCTOBER 1995
             ‘%d~~
              >                               OEI-03-94-00792
                         OFFICE OF INSPECI’OR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Semites’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by four OIG operating components: the Office of Audit Services, the
Office of Investigations, the Office of Civil Fraud and Adminsitrative Adjudicationand the
Office of Evaluation and Inspections. The OIG also informs the Secreta~ of HHS of program
and management problems and recommends courses to correct them.

                             OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                             OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative

investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of

unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,

administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud

control units which investigate and prosecute fraud and patient abuse in the Medicaid program.


                   OFFICE OF EVALUATION AND INSPECITONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A. Vito, Regional Inspector General.

PHILADELPHIA REGIONAL STAFF                          HEADQUARTERS         STAFF

Robert A. Baiocco, ProgramAnaZyst
                   Stuart R. Wright, ProgramSpecialist
Linda M. Ragone, ProgramAnaZysi
                     Barbara Tedesco, Technical Supporl Staff
Cynthia Hansford, ProgramAssistant
                  Brian P. Ritchie, Technical Suppoti Staff
Emily Tseng, Intern
                                 Linda Moscoe, Technical Suppoti Staff
Neil Montovani, Intern

Won Jong Oh, Intern



To obtain a copy of this repo~ please call the PhiladelphiaRegional Office at (800) 531-9562.
Depatiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




    WOUND CARE SUPPLIES:

OPERATION RESTORE TRUST DATA





            &
                #J   ‘=--’’’&s”&a
           +                q
           w                        JUNE GIBBS BROWN
          $                         Inspector General
          $
          5
          ‘b #
           %+--                        OCTOBER 1995
               >
             ‘~d3a                     OEI-03-94-00792
              EXECUTIVE                          SUMMARY


PURPOSE

This report identifies questionable billing practices and describes supplier and nursing
home practices that can lead to questionable payments under the Medicare Part B
wound care benefit in the five States targeted by Operation Restore Trust: California,
Florida, New York, Illinois, and Texas.

BACKGROUND

Wound Ckre Supplies

Wound care supplies are protective covers or fillers that treat openings on the body
caused by surgical procedures, wounds, ulcers, or bums. The Health Care Financing
Administration (HCFA) reimburses for wound care supplies under Medicare Part A
through its payments to nursing homes and home health agencies and Medicare Part
B through its payments to suppliers. The HCFA broadened its coverage policy on
March 30, 1994, allowing payment for secondary as well as primary dressings and
expanding the procedures that require dressings to non-physician treatments.

We selected claims for a 1 percent sample of beneficiaries who received wound care
supplies between June 1994, the start of fee schedule reimbursements, and February
1995. We applied proposed DMERC draft guidelines to these claims to identify
questionable billing practices. We also collected data from a stratified random sample
of 420 nursing homes from HCFA’S Online Survey Certification and Reporting system.

O~ation Restore llust

This inspection was conducted as part of Operation Restore Trust. Operation Restore
Trust is a health care anti-fraud demonstration project developed within the U.S.
Department of Health and Human Services by the Office of Inspector General, the
Health Care Financing Administration, and the Administration on Aging. Its aim is to
coordinate Federal and State resources to attack fraud and abuse in home health
agencies, nursing facilities, and durable medical equipment, including wound care
supplies in the five States with the largest Medicare expenditures.

The general findings of our study are contained in two other reports which highlight
questionable billings and potentially abusive marketing practices. In this report, we
have compiled our data for the five Operation Restore Trust States. By reviewing this
data, the Operation Restore Trust partners responsible for reviewing fraud and abuse
in each of the five States may be able to determine what problem areas regarding
supplier and nursing home practices exist in their State.




                                             1
Over $22 &n   of $65 &n   in questibnublepaymentsfor wound care supplies
between Jm 1994 and Febmmy 1995 wasfound in thejive O~ration R@ore ?hst
States.

Excessive utilization of wound care supplies was found in 62 percent of the total
Medicare allowances in Operation Restore Trust States. Significantly higher costs per
beneficiary was found in Illinois. For all States, $65 million of the $98 million in
Medicare Part B allowances for wound care supplies exceeded the proposed DMERC
guidelines.

Wound care activityh Option     Restore lhxst Stat@ is concentrated by p&G     suppk,
andplizce of service.

Hydrogel wound care products account for 41 percent of the questionable Medicare
allowances for non-tape supplies. Almost half of the excessive payments in the five
States were made to 9 suppliers, 6 percent of the sample. One supplier alone
received 19 percent of the questionable payments. Over three-quarters of
questionable wound care payments was made for beneficiaries who resided in nursing
homes.

N&g    horns h OperationRestore tit Stites reportsimilarmarketingpractices by
wound care suppi%m;huwevq in some Statesthe practices are more *pread

Overall, among the five Operation Restore Trust States there were not significant
variances in how nursing homes responded to survey questions concerning supplier
marketing practices. However, the prevalence of inducement offers from suppliers
did vary significantly among the ORT States. In addition, the degree of influence
some suppliers attempt to have over the provision of wound care supplies to nursing
homes differs among ORT States.



We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Indust~ Manufacturers
Association (HIMA), and the National Association for the Support of Long Term
Care (NASL).

The NASL made the only comment that was directed specifically at this report. They
stated that the fact that the five Operation Restore Trust States account for a high
proportion of the wound care supplies is only logical since these are the States with
the largest Medicare market. We agree. The purpose of this report was to provide a
single document that would be useful to the Operation Restore Trust partners who
are operating in the five States. This report is a compilation of information collected


                                           ii
for two companion reports, Questionable Medicare Payments for Wound Care Supplies
(OEI-03-94-O0790), and Marketing of Wound Care Supplies (OEI-03-94-00791). The
remaining comments from HCFA and the outside organizations   and our responses   to
those comments are presented in the companion reports.




                                         ...
                                        111
                       TABLE                    OF CONTENTS

                                                                                                                  PAGE



EXE~                s UMMARy            . . . ...””””””””””””””””                  ““””””””””””””””””””
                                                                                                                          .1

mODUmON                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                                          .8

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

                                                                                                       8

  �   Excessive utilization ofsupplies....................................
                                                                                                   . 10

 � Concentration of Medicare allowances . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                     11

 � Supplier marketing ofwound care supplies . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                 ..13

CC)MMENTS . . . . . . ...”””””.””.”””     . . . . . . . . . . . . . . . . ” ” ” ” ”....”.””

 APPENDI=

 k
    Wound Care Supplies -Descriptions                   and Guidelines          . . . . . . . . . . . . . . . . . . . A-1
                                                                                                                      .   B-1

 B: Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


 c.    QuestionableAllowances by HCPCS and State . . . . . . . . . . . . . . . . . . . . . . . C-1
                                                                                                       . . D-1

 D     Nursing Home State Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                         INTRODUCTION


PURPOSE

This report identifies questionable billing practices and describes supplier and nursing
home practices that can lead to questionable payments under the Medicare Part B
wound care benefit in the five States targeted by Operation Restore Trust: California,
Florida, New York, Illinois, and Texas.

BACKGROUND

Wound care supplies are fillers or protective covers that treat openings on the body

caused by surgical procedures, wounds, ulcers, or burns. Wound covers are flat

dressing pads. Wound fillers are dressings placed into open wounds to eliminate dead

space, absorb exudate, or maintain a moist wound surface. The Health Care

Financing Administration (HCFA) reimburses for wound care supplies under the

Medicare Part B program’s coverage for durable medical equipment (DME). The

coverage policy for these supplies is found in section 2079 of the Medicare Carriers

Manual. The HCFA contracts four DME regional carriers (DMERCS) to process

durable medical equipment claims including wound care supplies. The DMERCS issue

their own guidelines to clarify their coverage policy.


Medkare Part B Allowances for Wound Care Suppliks: 1990-1994

There were significant changes in wound care activity between 1990 and 1994.
Medicare Part B allowances were as low as $50 million in 1992 and peaked in 1993 at
$132 million, an increase of 164 percent. The number of beneficiaries that annually
received these supplies ranged from 86,600 in 1993 to as high as 273,300 in 1991. As
a result, allowances per beneficiary varied from $199 in 1990 to $1,526 in 1993.
Between 1993 and 1994 the number of Medicare beneficiaries that received wound
care supplies increased 47 percent.

In 1994, 61 percent of the average allowance per beneficiary was for specialty
dressings. Medicare fee schedule amounts for specialty dressings are as high as $35
for large hydrogel wound covers. Eleven of the specialty wound care products are
reimbursed by Medicare at over $10. Prior to 1992, Medicare reimbursed for wound
care supplies primarily in a single kit payment. These kits were a compilation of
wound care supplies and were reimbursed at $8 each in 1992. Billing for kits was
disallowed in 1992. However, component supplies contained in a kit can still be billed
as individual products. Billing for kits was disallowed in 1992. As a result, the number
of wound care supplies has increased over six times from 13 million in 1991 to 81
million in 1994. The table on the next page summarizes surgical dressing activity for
calendar years 1990 through 1994.




                                            1

Table 1. Wound Care Supply Activity 1990-1994



   Allowances      $53 million   $87 million        $50 million   $132 million   $98 million
  Beneficiaries      266,400       273,300           117,300         86,600        127,300
 Per Beneficiary       $199          $317              $423          $1,526         $769
 No. of Supplies       NI’A       13 million        45 million     69 million    81 million

The HCFA Broadens its Covemge Policyfor Wound tire Supplies

On March 30, 1994, HCFA expanded its coverage policy for wound care supplies.
The new policy states that coverage is “...limited to primary and secondary dressings

required for the treatment of a wound caused by, or treated by, a surgical procedure

that has been performed by a physician or other health care professional.” Primary

dressings are therapeutic or protective coverings applied directly to wounds or lesions

either on the skin or caused by an opening to the skin. These include alginate, foam,

specialty absorptive, hydrogel, hydrocolloid, and composite dressings. Transparent film

and contact layers also serve as primary dressings. Secondary dressings serve a

therapeutic or protective function and typically are needed to secure a primary

dressing. Items such as adhesive tape, roll gauze, and bandages are examples of

secondary dressings.


The Piihr Midicare Covemge Poiky Was More Restrictive

The HCFA national policy and the DMERCS’ policies prior to March 30, 1994 were
more restrictive. Stringent requirements were placed on the type of dressings, length
of treatment, cause of wound, type of provider, and medical documentation.       The
DMERCS’ policy before the expansion of the national policy covered only primary
dressings resulting from a surgical procedure for usually no more than 2 weeks. This
policy stated that “surgical dressings for closed incisions without drainage would rarely
be medically necessary for more than 1 week” and “when an ulcer, traumatic wound,
or burn has had sharp debridement, it will be considered a surgical wound for no
more than 2 weeks from the date of debridement.”

Prior to March 30, 1994, the HCFA national policy would allow dressings to be
covered for treatment of wounds that resulted from sharp debridement (e.g., scalpel,
laser) performed only by physician. The DMERC local policies stated that dressings
for other types of debridement (e.g., mechanical, chemical, autolytic) were not
covered. Wound care suppliers were required by DMERCS to submit a certificate of
medical necessity to document the need for the products. After the policy change in
March 1994, this was no longer required. The table on the following page compares
the wound care supply policy before and after March 30, 1994.




                                               2

Table 2. Comparison of Wound Care Supply Coverage Policies




  Only primary dressings                     Primary and secondary dressings
  Time limits on medical necessity           As long as medically necessa~

IIDressings   for sharp debridement   only   Any type of debridement
                                             Physician and non-physician treatments
                                                                                      I
  Limited to physician treatments
  Certificate of Medical Necessity           Certificate of Medical Necessity
  required                                   not required

Canier Romssing of Wound Care Supplk

In June 1992, HCFAissued afinalrule designating four Durable Medical Equipment
Regional Carriers (DMERCS) to process all claims for durable medical equipment,
including wound care supplies. The four carriers are the MetraHealth Insurance
Company (DMERC A), AdminaStar Federal (DMERC B), Palmetto Government
Benefits Administrators (DMERC C) and Cigna Healthcare (DMERC D). Effective
October 1, 1993, HCFA began the transition to the DMERC processing wound care
supply claims. During 1994, 56 carriers also processed surgical dressing claims before
the transition to DMERCS was complete. During the transition, these carriers did not
utilize the DMERC policies; they carriers used their own local policies to process
claims.

l%e DME Reghal       (hriem Implementa Fee Schedideand Introdke New Codks

Starting in June 1994, reimbursements for wound care supplies were based on a fee
schedule. The DMERCS introduced over 60 codes for wound care products to
implement the fee schedule. Prior to June, less than 20 codes were used to identify
and reimburse dressings. The DMERCS granted a grace period for all but two old
codes submitted through October 1, 1994. During the grace period the DMERC
would crosswalk the old code to the appropriate new code.

l%e DMERC3 hue Dn@ Polity to Ckzr@ Wound Care Cinwrage

Each DMERC, working with HCF~ developed a policy to clarify the coverage of the
wound care benefit. Included in these guidelines are definitive utilization and medical
necessity parameters. In addition, modifiers to the codes have been added to identi~
the number of wound sites being treated. In January 1995, each DMERC solicited
comments on these guidelines. After reviewing the comments, the DMERCS issued
revised policies to be effective October 1, 1995. See Appendix A for a summary of
the utilization guidelines.




                                             3

This change was initiated in part as a response to organizations in the wound care
community that expressed the need for clarification. For example, the Health Industry
Distributors Association in cooperation with the National Coalition for Wound Care,
the National Association of Retail Druggists, and the National Association for the
Support of Long Term Care developed consensus recommendations for improving the
Medicare wound care policy. These changes were recommended prior to the release
of the proposed changes in January 1995.

l%e GeneralAccounting @ice Dircloser SimihrrAbuses

The General Accounting Office (GAO) issued a final report, Medicare: Excessive
Payments for Medical Supplies Continue Despite Improvements (HEHS-95-171), in
August 1995 concerning payment controls for Medicare expenditures of durable
medical equipment with an emphasis on wound care supplies. The GAO found a
“lack of system wide controls” which led to abuse in both Part A and Part B. For
example, the number of dressings billed per beneficiary was, on average, nearly three
times higher under 29 new wound care codes. They attribute this activity to the
absence of a clearly defined policy.

Opation Restore tit     TargetsHealih Care Abuse in Five Stata

Operation Restore Trust (ORT) is a health care anti-fraud demonstration project
developed within the U.S. Department of Health and Human Services by the Office of
Inspector General, the Health Care Financing Administration, and the Administration
on Aging. Its aim is to coordinate Federal and State resources to attack fraud and
abuse in home health agencies, nursing facilities, and durable medical equipment,
including wound care supplies. The project’s initial focus will be in California, Florida,
New York, Illinois, and Texas.

METHODOIX)GY

QuestiimableBUings

To asses the nature of questionable billing practices, we interviewed DMERC officials
including medical directors and fraud control personnel. Each DMERC responded to
a questionnaire concerning wound care supply processing guidelines, the nature of
questionable billing practices, and corrective actions taken.

To determine the extent of questionable billing practices, we analyzed a 1 percent
sample of wound care beneficiaries. These beneficiaries received supplies under one
of 85 wound care supply codes in use between June 1994, the start of fee schedule
reimbursements, through February 1995. These claims are maintained in HCFA’S
National Claims History 100 percent Physician/Supplier database. Medicare Part B
allowed $980,270 in wound care supplies for our sample of 1,205 beneficiaries for this
9-month period. The five Operation Restore Trust States accounted for 727
beneficiaries and $760,502 in Medicare allowances. Allowed payments include the 80


                                            4
percent Medicare payment and the 20 percent coinsurance fee billed to the

beneficiary.


We applied the proposed DMERC draft guidelines to these claims to identify

questionable billing practices. Although these guidelines were not inforce during the

review period, they represent a consensus concerning wound care policy that couldbe

systematically applied and measured. We assumed the maximum allowable usage each

month for the month in which the supply was billed. We defined a questionable

billing practice as that amount in excess of the utilization guideline. We assumed each

type of wound cover billed represented a wound site. We reported Medicare

allowances above the tolerance levels by type of supply, DMERC, and number of

beneficiaries receiving supplies, and supplier. To determine if a link exits among

suppliers suspected of abusive billing practices, we reviewed data from the National

Supplier Clearinghouse (NSC). Under each provider identification number, the NSC

database includes the name of corporate officials, addresses, and provider aliases.


Claims for tape supplies (HCPCS A4454 and K0265) were analyzed differently. We

selected 101 beneficiaries from two groups of a stratified sample of 349 beneficiaries

that received tape. The first strata contained 31 beneficiaries that received $1,000 or

more in tape. The second, 318 beneficiaries that received between $25 and $999 in

tape. We selected all 31 from the first strata and randomly selected 70 beneficiaries

from the second. This sample of 101 beneficiaries represent $73,848.13 or 52 percent

of total allowed dollars in tape claims. The five Operation Restore Trust States

accounted for 50 beneficiaries and $28,822.54 in Medicare allowances from the sample

of 101 beneficiaries.


For each tape claim, we assumed that the beneficia~ used the maximum monthly

allowable usage for each primary and secondary dressing billed during that month

according to the proposed DMERC draft guidelines. The secondary dressing was

allocated the same amount of tape as the primary dressing. Dressings with an

adhesive border were not allocated tape.


We assumed dressings less than or equal to 16 square inches to be 4 inch by 4 inch.

We assumed a 6 inch by 8 inch size for dressing between 16 and 48 square inches and

8 inches by 8 inches for dressings greater than or equal to 48 square inches. We

allocated tsvo inches extra of tape for each side. Therefore, a 4 inch by 4 inch

dressing was allocated 24 inches of 1 inch tape. A 6 inch by 8 inch dressing was

allocated 36 inches and a 8 inch by 8 inch dressing, 40 inches. We applied the current

fee schedule price of $0.12 per 18 square inches to the tape allocated. Each 4 inch by

4 inch dressing used $0.16 in tape. A 6 inch by 8 inch dressing used $0.24 in tape,

$0.27 for a 8 inch by 8 inch dressing.


To quantify the potential impact of questionable billing practices, we projected our

findings, by multiplying sample results, i.e., Medicare allowances above the proposed

DMERC guidelines, by 100. Confidence internals for our projections are presented in

Appendix B.



                                           5
Ntig        ~07?lt3   Swvey

To determine how suppliers market wound care supplies and how nursing homes
handle the provision of these supplies, we selected a stratified random sample of 420
skilled nursing facilities and nursing homes from the Health Care Financing
Administration’s Online Survey Certification and Reporting (OSCAR) system. The
system contains every nursing home that is certified to receive Medicare or Medicaid
funds. We decided to sample nursing homes from the OSCAR system that had a total
size of 60 beds or more. This gave us a universe of 12,878 nursing homes from which
we selected our sample.

We selected a stratified sample so that we could provide more focused information on
five States: California, Florida, Illinois, New York, and Texas. These States are
curiently being targeted by Operation Restore Trust. We stratified our sample into six
groups including the five States and all other remaining States. We sampled a total of
420 nursing homes; the number of nursing homes from each stratum is shown in the
table below.


                Strata               Universe          Sample          Responding
                                                                        Universe
 California                            931                60               636
 Florida                               565                60               414
 Illinois                              700                60               537
 New York                              584                60               457
 Texas                                  964               60               723
 Other States                          9,134             120              7,003
                Total                 12,878             420              9,770

We sent identical questionnaires to the administrators of the 420 nursing homes.
Surveys were returned by 315 nursing homes giving us an overall response rate of 75
percent. We chose to project responses only to the responding universe and not to
the total universe of 12,878 nursing homes. Responses from the 315 nursing homes
were weighted by stratum and projected only to the responding universe of 9,770
nursing homes. The responding universe for each stratum in included in the table
above.

In order to      accurately project responses to the total universe, we would have had to
perform an       analysis of non-respondents to evaluate the characteristics of nursing
homes who        chose not to respond. Because we knew very little about the non-
responding       nursing homes, we decided to use the more conservative responding
universe.



                                                6

For comparison purposes, data from the each of the fives States is presented along
with data from the remaining 45 States in Appendix D.

Reprt l%xentation

This report is one of three reports concerning Medicare payments for wound care
supplies. The second report, Questionable Medicare Payments for Wound Care Supplies
(OEL03-94-00790) identifies questionable billing practices for wound care supplies
under Medicare Part B between June 1994 and February 1995. A third report
Marketing of Wound Care Supplies (OEI-03-94-00791) describes supplier and nursing
home practices that can lead to questionable payments and examines issues concerning
Medicare beneficiaries’ use of wound care supplies nationally.

This inspection was conducted in accordance with the Quali~ Standards for Inspections
issued by the President’s Council on Integrity and Efficiency and is part of Operation
Restore Trust.




                                           7

                               FINDINGS


OVER $22 MILLION OF $65 WON   IN QUESTIONABLE PAYMENTS FOR
WOUND CARE SUPPLIES BETWEEN JUNE 1994 AND FEBRUARY 1995 WAS
FOUND IN THE FIVE OPERATION RESTORE TRUST STATES.

The five States targeted by Operation Restore Trust, California, Florida, New York,
Illinois, and Texas accounted for $22 million in Medicare allowances for wound care
supplies that exceeded utilization guidelines between June 1994 and February 1995.
For all States, $65 million of the $98 million in Medicare Part B allowances for wound
care supplies exceeded the proposed DMERC guidelines.

Quatiouble billingpmcti= found in 62 pemnt of Medicare allowances in O~ation
Restore llu.st Stakx

The $22 million in questionable payments in California, Florida, New York, Illinois,
and Texas represent 62 percent of the $36 million in total wound care allowance for
those States. Non-tape supplies account for over $18 million of the questioned
payments, tape approached $4 million. These States had 39,200 beneficiaries that
received wound care supplies. Excess utilization was found in 26,200 beneficiaries that
received non-tape supplies. The table below summarizes the wound care activity for
the five Operation Restore Trust States between June 1994 and February 1995.

Table 3. Wound Care Activity Summary-5 Operation Restore Trust States




        Submitted           $76,050,200         72,700        $1,046      36,313,600
         Allowed            $35,640,150         39,200          $910      26,969,200
     Total Questioned        $22,250,630        N/A             N/A          N/A
  Questioned - Non-Tape      $18,552,330         26,200          $708     12,938,400
    Questioned - Tape         $3,698,300        N/A             N/A          N/A

Significantlyhighercosts per benejichq wasfound ti Illbwik.

The submitted, allowed, and questioned wound care amounts per beneficiary were
significantly higher in Illinois than the other Operation Restore Trust States. The
wound care claims that were submitted for 68 Illinois beneficiaries in our sample
averaged $2,421. The next highest average in the ORT States was found in New York
at $1,612, no other ORT State exceeded $790. The Medicare allowed charges for 50
Illinois beneficiaries averaged $1,515. California followed at $962 per beneficiary.
Questionable payments were found in 33 Illinois beneficiaries that received non-tape


                                           8


                                                                                          —.
supplies. These payments averaged $1,176, almost double the $690 average of
California beneficiaries. However, one Illinois beneficiary received questionable
papents    of$21,770, which represented 12percent of the ORT total. Questionable
pa~ents    fortheother    32 Illinois beneficiaries averaged $532. Thetable below
summarizes the wound care activity from the sample of beneficiaries in each State.
 Submitted and allowed totals include tape, questioned amounts are for non-tape
 supplies only.

Table 4. Wound Care Activity - Each Operation Restore Trust State




                                                                                           164,597     $2,421
                  c..
                                                                                           $75,765     $1,515
                   mlu         w Uu                             I
                                                 I

                                                                         17,189            $38,811     $1,176
   Questioned - Non-Tape                         I   33
                                                            California
                                                                         61,030        $141,612          $553
                  Submitted                          256
                                                                         46,731            $75,993       $962
                     Allnmn=d
                    -1”   v. “ /-
                                                      79
                                                                                           $43,467       $690
 l==Questioned                  -IGn-Tape             63                 20,833
                                                            New York
                                                                        151,335            $290,176     $1,612
                   Submitted
                        180
                                                                        116,953            $119,867      $936
                        Allowed
                     128
                                                                             62,782         $59,740       $629
        Questioned - Non-Tape
                        95
                                                              Florida                  —



  1=                                                                         41,868         $86,152       $790
                    Submitted

                    L                                 109                              —
                                                                             36,602         $56,241       $839
                                                       67
  u     ~   UG3   LIULIW-
                         A“-wed
                        Iluu M


                                      Non-Tape         48                    15,859
                                                                                       —

                                                                                       —
                                                                                            $30,712       $640

   !,
   ,,                                                           Texas                                             -l
                                                                                                                   ,,
                                                                             41,622          $77,965      $684
                        4
                        Submitted                     114
                                                                             26,143          $28,736       $423
                         A Iln.xh=d
                         mlu    w .-
                                                       68           ,

                                                                              12,721         $12,793       $556
         Questioned - Non-Tape                         23




                                                                        9

QUESTIONABLE WOUND CARE PAYMENTS IN ORT STATES ARE
CONCENTRATED BY PRODUCI’, SUPPLIER AND PLACE OF SERVICE

The excessive payments for wound care products in California, Florida, New York,
Illinois, and Texas was concentrated in a small number of products and suppliers. In
addition most of these payments were made for beneficiaries that resided in Skilled
Nursing or Nursing Facilities.

Hjdiogel wound care p&ts    account for 41 pement of the quekmable Medicare
alibwancesfor non-tape supphk

In the five Operation Restore Trust States, questionable payments for hydrogel wound
care products accounted for 41 percent of the non-tape supplies that exceeded
utilization guidelines. Of the $185,523 in questionable non-tape payments in our
sample, $76,277 was made for hydrogel products. We identified $44,356 in
questionable payments for hydrogel wound filler alone. The data in Appendix C
provides the Medicare allowances in our sample that exceeded the proposed DMERC
guidelines for each wound care product, not including tape.

Abnost half of the excessivepayments h the jive Stateswere made to 9 supph%, 6
percent of the sample. One wpplier aknw 19 pement of the questionablepayments.

Nine suppliers received 49 percent of the non-tape payments for supplies that exceed
utilization guidelines. They represent 6 percent of the 155 suppliers who provided
wound care supplies in California, Florida, New York, Illinois, and Texas. The
individual States show a similar concentration. In Illinois, one supplier received 57
percent of the questionable payments, two others received a total of 19 percent, for an
overall total of 76 percent. Two suppliers in Texas received approximately half of the
questionable non-tape payments identified in that State. In California and Florida, it
was three suppliers, in New York it was four.

One of these suppliers appeared at the top in both California and Illinois and received
19 percent of all questionable payments in the five States. Another supplier appeared
at the top in New York and Texas and received 3 percent of all questionable
payments in the five States

Over three-quartemof questinuble wound care pqments was rnadkfor 54 penxmt of
benejkiaries who residedSkilkd Nursingor N&g Facilitks.

Over 77 percent of the excessive Medicare allowed payments for non-tape supplies
was made for beneficiaries that resided in skilled nursing or nursing facilities. The
beneficiaries in these locations accounted for 54 percent of all beneficiaries in
California, Florida, New York, Illinois, and Texas. The remaining 23 percent of excess
payments was made for the 46 percent of the beneficiaries that resided at home or a
custodial care facility. The table on the following page shows the excessive payments



                                           10

for non-tape supplies by place of service. Nine beneficiaries appear in more than one
place.

Table 5. Excessive Paymentsfor Non-Tape Wound Supplies by Place of Service



 Skilled Nursing Facility                  120                         $125,597
          Home                              123                         $38,443
     Nursing Facility                       27                          $17,385
  Custodial Care Facility                     1                          $4,098


NURSING HOMES IN OPERATION RESTORE TRUST STATES REPORT
smALAR MARKETING  PRACI’ICES BY WOUND CARE SUPPLIER%
HOWEVER IN SOME STATES THE PRACTICES ARE MORE WIDESPREAD.

Overall, among the five Operation Restore Trust States there were not significant
variances in how nursing homes responded to survey questions concerning supplier
marketing practices. This was true when comparing both the ORT States to each
other and to the rest of the States in the nation. However, there were several supplier
marketing practices where certain ORT States reported significantly different levels of
occurrence. A copy of the survey instrument with individual State responses for each
question is provided in Appendix D.

l%e prevalence of indkement offeis from suppiiensvariedsignificantlyamong the ORT
States.

While 23 percent of Florida nursing homes and 22 percent of Texas nursing homes

reported having been offered inducements such as free gift or supplies from wound

care suppliers, only 4 percent of New York nursing homes report such inducements.

I.-ESSthan one-tenth of Illinois nursing homes (7 percent) reported supplier

inducement attempts. California’s nursing homes reported inducements at a rate of 15

percent which was similar to the 13 percent average of all other States.


llw digree of in.e  some supphknrattemptto have over the provkion of wound care
suppliesto numinghomes ~izw among ORT States.

Among the ORT States, nursing homes differ on whether it is their staff or the
supplier representative that decides the number of wound care supplies to be
delivered in a given month. Only 7 percent of California nursing homes had suppliers
making this determination, while more than one-third of nursing homes in New York
(34 percent) had suppliers performing this task. Eleven percent of nursing homes in
Florida had suppliers determining the amount of supplies delivered in a month.
While, Illinois and Texas had 24 and 22 percent respectively. Similar to Illinois and


                                           11

Texas, 24 percent of all other States reported that suppliers determined the number of
supplies provided monthly.

Nursing homes in the ORT States reported statistically significant differences in

suppliers’ provision of prescription forms to be filled out by the nursing home or

patient’s physician. New York facilities reported a high of 34 percent of suppliers

providing these forms. In addition, nursing homes in New York appear more likely to

also have suppliers fill out the prescription form and present it for the physicians

signature than other States. All of the ORT States reported higher percentages for

supplier provision of prescription forms than the 8 percent average reported by all

other States.


The ORT States also differ in the amount of access suppliers request to patient

medical records. Almost half of the nursing homes in New York (47 percent)

reported that supplier representatives have requested to review patient medical

records. This percentage was more than double the percentage of nursing homes

reporting this situation in non-ORT States (20 percent). The next highest ORT State

was Florida with 16 percent and Illinois, California, and Texas with 13, 12, and 11

percent.





                                          12

                              COMMENTS


We solicited and received comments on our draft reports from HCFA and other
concerned organizations. The organizations that provided us with responses were the
Health Industry Distributors Association (HIDA), the Health Industry Manufacturers
Association (HIMA), and the National Association for the Support of Long Term
Care (NASL).

The NASL made the only comment that was directed specifically at this report. They
stated that the fact that the five Operation Restore Trust States account for a high
proportion of the wound care supplies is only logical since these are the States with
the largest Medicare market. We agree. The purpose of this report was to provide a
single document that would be useful to the Operation Restore Trust partners who
are operating in the five States. This report is a compilation of information collected
for two companion reports, Questionable Medicare Payments for Wound Care Supplies
(OE1-03-94-00790), and Marketing of Wound Care Supplies (OEI-03-94-00791). The
remaining comments from HCFA and the outside organizations and our responses to
those comments are presented in the companion reports.




                                           13

                                 APPENDIX                        A


          WOUND CARE SUPPLY UTILIZATION GUIDELIN=
                       OCTOBER 1, 1995

HCPCS WOUNDC4RE PRODUCX                                                             STANDARD

K0196   Alginatedressingwoundcover,withoutadheaive,16 sq. in. or less               llday

K0197   Alginatedressingwoundcover,withoutadhesive,>= 16 sq. in. <= 48 sq. in.      llday

K0198   Alginatedressingwoundcover,withoutadhesive,more than 48 sq. in.             llday

K0199   Alginatedressingwoundfiller,per 6 inches                                    21day


K0203 Compositedressingwoundcover,withadhesive,16sq. in. or less                    3iweek

K0204 compositedressingwoundcover,withadhesive,> = 16sq. in. <= 48 sq. in.          3/week

K0205 Compositedressingwoundcover,withadhesive,more than 48 sq. hi.                 3/week


K0206 Contactlayer,16sq. in. or less                                                Mveek

K0207 Contactlayer,>= 16sq. in. <= 48 sq. in.                                       l/week

K0208 Contactlayer,more than 48 sq. in.                                             liweek


K0209   Foam dressingwoundcover,withoutadhesive,16sq. in. or less                   3fweek

KO21O   Foam dressingwoundcover,withoutadhesive,> = 16sq. in. c= 48 sq. ln-         3/week

K0211   Foam dressingwoundcover,withoutadhesive,more than 48 sq. in.                3iweek

K0212   Foam dressingwoundcover,withadhesive,16sq. in. or less                      3fweek

K0213   Foam dressingwoundcover,withadhesive,> = 16sq. in. c= 48 sq. in.            3/week

K0214   Foam dressingwoundcover,withadhesive,more than 48 sq. in.                   31week

K0215   Foam dressingwoundfiller,per gram                                           llday


K0216   Gauzenon-impregnated,withoutadhesive,16sq. in. or less                      31day

K0217   Gauzenon-impregnated,withoutadhesive,>= 16sq. in. <= 48 sq. in.             31day

K0218   Gauzenon-impregnated,withoutadhesive,more than 48 sq. in.                   31day

K0219   Gauzenon-impregnated,withadhesive,16sq. in. or less                         lfday

K0220   Gauzenon-impregnated,with adhesive,> = 16sq. in. <= 48 sq. in.              llday

K0221   Gauzenon-impregnated,withadhesive,more than 48 sq. in.                      llday

K0222   Gauzeimpregnated,withoutadhesive,16 sq. in. or less                         ltday

K0223   Gauzeimpregnated,withoutadhesive,> = 16 sq. in. <= 48 sq. in.               llday

K0224   Gauzeimpregnated,withoutadhesive,more than 48 sq. in.                       I/day

K0228   Gauzeimpregnated,withoutadhesive,16 sq. in. or less                         I/day

K0229   Gauzeimpregnated,withoutadhesive,> = 16sq. in. < = 48 sq. in.               Iiday

K0230   Gauzeimpregnated,withoutadhesive,more than 48 sq. in.                       ljday

K0263   Gauzeelastic,all types,per linearyard                                       sameas prima~

K0264   Gauzenonelastic,per linearyard                                              sameas primary

K0266   Gauzeimpregnated,anywidth,per linearyard                                    sameas primary


K0234   Hydrocolloiddressingwoundcover,withoutadhesive,16sq. in. or less            3iweek

K0235   Hydrocolloiddressingwoundcover,withoutadhesive,>= 16sq. in. <= 48 sq. in.   3/week

K0236   Hydroccdloid

                    dressingwoundcover,withoutadhesive,more than 48 sq. in.         3/week
K0237   Hydrocolloiddressingwoundcover,withadhesive,16sq. in. or less               3/tmek
K0238   Hydrocolloiddressingwoundcover,withadhesive,> = 16sq. in. <= 48 sq. in.     3Jweek
K0239   Hydrocolloiddressingwoundcover,withadhesive,more than 48 sq. in.            3Aveek
K0240   Hydrocolloiddressingwoundfiller,paste,per fluidounce                        31week
K0241   Hydrocolloiddressingwoundfiller,dryform,per gram                            3/week




                                                  A-1

HCPCS    WOUND CARE PRODU~                                                        STANDARD

K0242   Hydrogeldressingwoundcover,withoutadhesive,16sq. in. or less
             llday
K0243   Hydrogeldressingwoundcover,withoutadhesive,> = 16sq. in. <= 48 sq. in.
   l/day
K0244   Hydrogeldressingwoundcover,withoutadhesive,more than 48 sq. in.
          l/day
K0245   Hydrogeldressingwoundcover,withoutadhesive,16sq. in. or less
             3fweek
K0246   Hydrogeldressingwoundcover,withoutadhesive,> = 16sq. in. <= 4S sq. in.
   3tweetr
K0247   Hydrogeldressingwoundcover,withoutadhesive,more than 48 sq. in.
          3/%wek
KOX8    Hydrogeldressingwoundtiller,gel,per fluid ounce
                          3/month
K0249   HydrogeI dressing wound filler, dry form, per gram
                       3/month

K0251 Specialtyabsorptive dressing wound cover,
      without adhesive, 16 sq. in. or less                                        I/day
K0252 Specialtyabsorptive dressing wound cover,
      without adhesive, >= 16 sq. in c= 48 sq. in.                                I/day
K0253 Specialtyabsorptive dressing wound cover,
      without adheaive, more than 48 sq. in.                                      I/day
K0254 Specialtyabsorptive dressing wound cover,
      with adhesive, 16 sq. in. or less                                           l/every other day
K0255 Specialtyabsorptive dressing wound cover,
      with adhesive, >= 16 sq. in <= 48 sq. in.                                   I/every other day
K0256 Specialtyabsorptive dressing wound cover,
      with adhesive, more than 48 sq. in.                                         Vevery other day

K0257 Transparent film, 16 sq. in. or less, each dressing
                        3/week
K0258 Transparent film, > = 16 sq. in. <= 48 sq. in.
                             3hveek
K0259 Transparent film, more than 48 sq. in.
                                     3heek

K0154   Wound pouch, each
                                                        3/week
K0261   Wound filler, not elsewhere classified,gel/paste, per fluid ounce
        I/day
K0262   Wound filler, not elsewhere classified,dry form, per gram
                llday
A4460   Elastic bandage, per roll
                                                ltweek
K0265   Tape, all types, per 18 sq. in.
                                          per wound cover
A4454   Tape, all types, all sizes
                                               per wound cover




                                                        A-2

                                       APPENDIX                               B


                                         coI$n3m.NcE          INTERVALS
Wereported     ourprojected totals by multiplying 100 bythepoint   estimates in our
samples. The point estimates represent the total allowance, number of supplies, or
number of beneficiaries. The tables below include confidence internal columns. The
number provided in this column is the semi-width of the confidence interval for each
of the projected totals. The semi-width is the standard error of the projection
multiplied by 1.96 when computing confidence intervals at the 95 percent level. The
semi-width added to or subtracted from the estimated mean or total (projection)
provides a 95 percent confidence interval. The table title numbers below correspond
with the table numbers in the report.

Table 1. Wound Cam Supply Activity   1990-1994




Table3.   Wound lMe Activity Summmy-50puation    Restwe’Mst    States




                                                                        +/-$288    $1,046   +/-2,075,430   36,313,600

                                                                        +/-$138    $910     +/-5,925,809   26,969,200

                                                                        IVA        N/A      N/A            NIA


                                                                        +/-$204    $708     +/-3,263,443   12,938,400


                                                                        NIA        NIA      N/A            NJA




                                                      B-1

                               APPENDIX                                   C

            MEDICARE PART B NON-TAPE ALLOWANCES THAT EXCEEDED
                   PROPOSED DMERC UTILIZATION GUIDELINES




                                                     Alginate Dressings

K0150                                           $0               $0              $0              $0               $0                $0

KOl%/KO150KB                                    $0           $1,386         $1,676             $292               $0           $3,354

K0197K0150KC                                    $0               .$0             $0              $0               $0                $0

KO198/KO150KD                                   $0               $0              $0              $0               $0                $0
K0199                                            $4,747                 $0           $638             $0               $0          $2,385
                                   ,.. ,,:..,....
                                               ..:...,.,, .. ,,.,.,,. . . . .. .; .,. ... . ... .:   :.. . ., .:. . . ... .. . . . ,.,. ”.
6;&:-$i~&ii:$4&$’   :.;;:;:;;;:;:’.:: :;:,””...:411%7‘;;:;:    ..;:$j@&:: :,. ;.:~~,qlf;.:, ;:.,:: ,@z;    :.”: ?,’+J:.: , “, ,..$5,F%”




                                                                                                                                             I
                                                       Foam Dressings

K0151                                           $0               $0              $0               $0               $0                $0

K02QWK0151KB                                $1,040           $3,979          $6,628           $2,507             $96           $14,250

K0210/KO151KC                                    $0          $1,136            $766             $747            $511            $3,160

K0211/KO151KD                               $3,150               $0            $133             $929               $0           $4,212

K0212                                       $1,920             $244          $1,644               $0            $245            $4,053

K0213                                            $0            $636               $0              $0               $0             $636

K0214                                            $0               $0              $0              $0               $0                $0

K0215                                            $0               $0              $0              $0               $0                $0




                                                       c-1
                                                                                 Gauze

A4200                                                        $59                            $0            $403            $57            $147           $666

A4202                                                          $0                           $0                  $0          $0             $0             $0

A4203                                                          $0                           $0                  $0          $0             $0             $0

K0216/A4200KB                                              $918                         .$752            $4,316          $919            $869         $7,774

K0217/A4200KC                                              $150                         $891              $354         $1,880          $1,309         .$4,584

K02181A4200KD                                           $6,215                            $70            $1,456        $6,246              $0        $13,987

K0219                                                           $0                           $0                 $0          $0             $0             $0

K0220                                                           $0                           $0             $20             $0             $0            $20

K0221                                                           $0                           $0                 $0          $0             $0              $0

K0222                                                         $59                       $707              $741           $325              $0         $1,832

K0223                                                      $519                         $380              $260              $0             $0         $1,159

K0224                                                           $0                           $0                 $0          $0             $0              $0

K0228                                                           $0                   $1,649                     $0          $0             $0         $1,649

K0229                                                       $489                        $517             $2,073          $5%             $423         $4,098

K0230                                                           $0                           $0                 $0          $0             $0              $0

K0263/A4202KF                                                   $0                           $0                 $0          $0             $0              $0

K02WA4203KF                                                     $0                           $0                 $0          $0             $0              $0

K0266                                                            $0                            $0               $0          $0             $0              $0
                                              ,..:;
                                                 . ,,,.:..
                                                        .:.. :. .. ,,.,.., .,,.: .’:,:..,,..:..:..,. :
                                              +Y<.$swz                  ::xMw@:
                                              .... .. .. .. .. . ... . .,,  ,,                   . :
                                                                                     .. . .........      . ..

                                                                   Hydrocolloid Dressing

A4204                                                       $340                         $680            $1,535             $0            $13          $2,568

K0149                                                         $74                            $0                 $0          $0             $0             $74

K0234/KO149KB                                                 $99                            $0             $82           $190           $200            $571

 Ko235/Ko149Kc                                              $362                         $398                   $21         $0             $0            $781

 K02WK0149KD                                                     $0                           $0                 $0         $0             $0              $0

 K0237                                                        $36                             $0           $197             $0             $0            $233

 K0238                                                           $0                        $52                   $0       $611             $0            $663

 K0239                                                           $0                           $0                 $0         $0             $0              $0

 K0240                                                           $0                           $0                 $0         $0             $0              $0

 K0241                                                           $0                           $0                 $0         $0             $0              $0

:kid    - Mwii&iiiidii+iiiiti   :: ‘:”   : .’ “         “’““kill”: :.’; ‘“ ‘:$1:1% ; ‘                   &,835””; : “:“;”” ml    i ;“;RW1$;”    “’:’::~”~i~~~”” :




                                                                         c-2
                                                 .- ..-. I             .. . ...   .   ..             t’-             2
                                                       Hydrogel Dressings

A4205
                                         $319                    $0                    $796            $637          $372          $2,124

K0148
                                            $0                   $0                      $0              $0            $0              $0

K0242/KO148KB
                               $1,905                  $292                  $1,748            $250          $544          $4,739

K0243/KO148KC
                               $2,963                  $178                  $5,649              $0          $269          $9,059

K02JWK0148KD
                                $2,057                    $0                  $1,063          $11,388           $0         $14,508

K0245
                                            $0                   $0                     $39              $0            $0             $39

KOW6
                                             $0                  $94                   $1,174             $0          $184          $1,452

K0247
                                            $0                   $0                      $0              $0            $0              $0

K0248/KO148KE
                              $11,405                $12,979                 $13,684          $2,528        $3,760        $44,356

K0249
                                            $0                   $0                      $0               $0           $0              $0



                                               Specialty      AbsorptiveDressings
K0251                                             $0                  $30                    $258               $0            $0           $%
K0252                                            $60                 $140                   $1,165          $1,466         $194          $3,025
K0253                                         $2,128                   $86                   $389           $1,798        $1,902         $6,303
K0254                                           $240                 $107                       $0              $0            $0           $347
K0255                                              $0                $191                       $0              $0            $0           $191
K0256                                              $0                   $0                      $0              $0            $0             $0
!ioti-i@cial&:*ti*      :ti*j;&i:   :::..~,,“. “.$*W,,,.,: ‘“”,,:.$5$+:{.’:,.’;
                                                                   ., .,,,,                                                  096.. “.”’’.,’.
                                                                                                                                        :$lb,js$

                                                        TransparentFilm
A4190                                            $12                    $0                     $79            $174           $19           $M
Ko257/A4190KB                                    $39                    $8                    $126              $0           $33           $206
K0258/A4190KC                                 $1,952                  $230                  $1,437          $.3,454         $360          $7,433
Ko259/A4190KD                                    $69                    $0                      $0              $0            $0            $69


                                                             Other Supplies
                                       I                     1              1                         I               I            1
A4323 Saline Solution                         $2,828               $2,107                   $7,166          $1,237        $1,346         $14,684
                                       I                                                              1               f            I

A4460 Elastic bandage                            $43                     $0                   $236              $0            $0           $279
                                       I                                                              ,               1            !




                                                             c-3
                           APPENDIX                  D


                         NURSING HOME STATE DATA


Each nursing home inoursample      wasasked tocomplete a48questionsumey.      The
questions for the survey were developed by reviewing information on wound care
supplies produced by HCF~ the Durable Medical Equipment Regional Carriers,
wound care suppliers, and professional organizations.

For most questions, we report the percentage of nursing home responses to the
question and the projected number of responses by the each of the five States. The
percentages have been rounded to the nearest whole number and therefore will not
always add up to exactly 100 percent. The projected numbers have been rounded and
will therefore not always add up to exactly 9,770 nursing homes. In addition, for
several questions respondents selected more than one answer. These questions are
identified by an asterisk in the sample survey instrument that follows. In the several
questions where respondents were asked to provide numerical data (e.g., number of
beds or percentage of patients receiving incontinence supplies), an average number or
percentage is provided.

We also report the semi-width for each of the response percentages at the 95 percent
confidence level. The semi-width is the standard error of the projection multiplied by
1.96. The semi-width added or subtracted to the percentage provides a 95 percent
confidence internal. The range of the 95 percent confidence interval is presented in
the table following each question.

Under each question, a table is presented that breaks down each response by State.
For each State, the first number provided is the percentage responding, the second
number is the semi-width, and the third number is the projected number of nursing
homes.




                                         D-1

            SURGICAL     DRESSINGS AND WOUND CARE SUPPLIES
                          NURSING FACILITY SURVEY

This sumey is being conducted by the Office of Evaluation and Inspections within the
U.S. Department of Health and Human Services’ Office of Inspector General. We
are currently reviewing Medicare’s payments for surgical dressings and wound care
supplies. We are also interested in learning about equipment suppliers’ marketing
practices for wound care supplies. When we refer to wound care supplies, we mean
supplies such as gauze, tape, specialty dressings, wound pouches, etc. that are used in
the treatment of surgical openings or debrided wounds.

Our review is focusing on Medicare Part B payment of wound supplies. Please keep
this in mind when completing this survey. We are not at this time interested in wound
care supplies or surgical dressings that are included in Medicare Part A cost reports.

All informationprovided will be kept confidential. All data will be reported out in the
~me~ate and the names of nursing facilities will never be identified to the Public. If
you have any questions about this survey, please call Linda Ragone at 1-800-531-9562.

Please return this surveyby March 27, 1995 in the enclosed self-addressed, pre-paid
envelope or if you prefer you can fax it to us at (215) 596-6987. We appreciate your
cooperation and assistance.

Please print the folknving inforrnution(@wire kiitas the reqxmdent the pemon who
answemthe survey quiwions):

RESPONDENT:

JOB TITLE:

NURSING FACILITY:

ADDRESS:



TELEPHONE:




                                          D-2

GeneralInformation

1.    How does Medicare categorize your facility?



       Skilled Nursing Facility        76      70       43          89     22      33
                                     *13.1    *13.5    *14.3       *8.9   *12.1   *9.6
                                      483      290      231        407     159    2311
       Nursing Facility                2        0           26      6      27      17
                                      *4.3     *0.O        *12.7   *6.8   *13.O   *7.7
                                       13       0           140     27     195    1191
        Both Skilled Nursing          22       25           15      2      44      50
        Facility and Nursing         *12.7    *12.8        *1O.3   *4.O   *14.5   *1O.2
        Facility                      140      104          81      9      318    3502
        Other (please speci~)          o        0           15      2      4       0
                                      +0.0     *0.O        *10.3   *4.O   *5.7    *0.O
                                       o        0           81      9      29      0
        No Response                     o        5          0       0      2       0
                                      too      *6.4        *0.O    *0.O   *4.1    *0.O
                                        o       21          0       0      14      0



2.     How many beds does your nursing facility contain?




                                              D-3

4.    What percentage of your population is eligible for Medicare Part B Coverage?




5.	   What percentage of your current patient population receive surgical dressings or wound care
      supplies (e.g. gauze, hydrogel or alginate dressings, wound pouches)?




6.	   Are any of the surgical dressings or wound care supplies used for patients in your nursing
      facility billed to Medieare Part-B?



       Yes                                54     50       48       57        49        57
                                        *15.3   *14.8    *14.4    *14.2     *14.6     *10.1
                                         343     207      258      260       354      3992
                                    I
        No                               44      45        48       38       49        38
                                        *15.2   *14.7    *14.4     *13.9    *14.6     *9.9
                                         280     186      258       174      354      2661
                                                  5        4        4         2         5
                                                 ~6.4     *5.7     *5.6      *4.1      *4.5
                                                + 21       21       18        14       350




                                                D-4

7.	   Does your nursing facility directly bill Medicare Part B for wound care supplies or do you have
      at least one external supplier who bills Medicare Part B directly for these supplies?



        Nursing Facility is sole                 49      23      20      4       27      33
        supplier                                *15.3   ~12.4   +11.6   *5.6    *13.O   *9.6
                                                 312     95      107     18      195    2311
        At least one external                    37      36      48       70      40     45
        supplier                                *14.8   *14.2   *14.4   *13.1   *14.3   *1O.2
                                                 235     149     258     320     289    3151
        Other (please specify)                   10      23      24      23      24      18
                                                *9.2    *12.4   ~12.3   *12.O   *12.5   *7.9
                                                 64      95      129     105     174    1261
        No Response                              5       18      9       2       9       4
                                                *6.7    *11.4   *8.3    *4.O    *8.4    *4.O
                                                 32      75      48      9       65     280




8.	   Do you have a wound care supplier that provides wound care products only to the
      Medicare-eligible patients in your facility?

      .,.,,.. ...:, ..,..::.:.,:’:,,; ..   .,


         Yes                                     20      18      22      40      31      17
                                                *12.2   *11.4   *12.O   *14.O   *13.5   k7.7
                                                 127     75      118     183     224    1191
         No                                       78     77      70      57      67      79
                                                t12.7   *12.4   *13.2   *14.2   *13.7   *8.3
                                                 496     319     376     260     484    5532
         No Response                             2        5      9       2       2       3
                                                *4.3    *6.4    58.3    *4.O    *4.1    *3.5
                                                 13      21      48      9       14     210




                                                        D-5
9.   How did your facility become aware of the suppliers you use?



      Through supplier               10       14        9        4          2       22
      advertisements                *9.2     *10.3     *8.3     *5.6       *4.1    k8.5
                                     64       58        48       18         14     1541
      Through supplier direct         5        9        4        2          2       8
      mail marketing                 *6.7     *8.5     *5.7     *4.O       k4.1    *5.5
                                      32       37       21       9          14     560
      Through supplier               63       41         54      74         36      67
      representative/salesperson    *14.8    *14.5     *14.4    *12.5      *14.O   *9.6
      visit                          401      170       290      338        260    4692
      Other (please speci@)          37        39       39       23         40      36
                                    *14.8     *14.4    *14.1    *12.O      *14.3   *9.8
                                     235       161      209      105        289    2521
      No Response                   7        20       13             4      27      4
                                   *7.8     +11.8    *9.7           *5.6   *13.O   *4.O
                                    45       83       70             18     195    280
     ~more than one answer was selected by some respondents




                                              D-6

Use of Wound Care SuPPliea


10.    Who initially identifies that a patient has a need for wound care supplies?




        Family Physician                24        39       41        38         44     34
                                       *13.1     *14.4    *14.2     *13.9     *14.5   *9.7
                                        153       161      220       174       318    2381
        Medical Director of              7        2         9         11        7      9
        Nursing Facility                *7.8     *4.1      *8.3      *8.9     *7.5    *5.8
                                         45       8         48        50       51     630
         Supplier Representative         2         2        4          2       0        1
                                        *4.3      *4.1     *5.7      i4.o     *0.O    *2.O
                                         13        8        21         9       0       70
         Director of Nursing            39        20        30       17        47      25
                                       *14.9     *11.8     *13.2    *1O.7     *14.6   *8.8
                                        248       83        161      78        340    1751
         Nurse/Nursing Facility         63        70         59      66         38     70
         Attendant                     *14.8     *13.5     *14.2    *13.5     *14.2   *9.4
                                        401       290       317      302       275    4902
         Wound Care Specialist           20       14        11        4         0      3
         Contracted by Nursing          *12.2    *1O.3.    *9.O      *5.6      *0.O   *3.5
         Facility                        127      58        59        18        0     210
         Other (please specify)           17      20        20       23         11     11
                                        *11.5    *11.8     *11.6    *12.O      *9.1   *6.4
                                         108      83        107      105        80    770
         No Response                   o        0        0            0         2      0
                                      *0.O     *0.O     *0.O         *0.O      *4.1   *0.O
                                       o        0        0            0         14     0
         more than one answer was selected by some respondents




                                                 D-7

11.   Who decides what specific supplies will be ordered for the patient?




       Family Physician                49       66         57      49         62     63
                                      *15.3    *14.O     *14.3    *14.3     *14.2   *9.9
                                       312      273       306      224       448    4412
       Medical Director of              10       7         9        13       7       13
       Nursing Facility                *9.2     *7.5      *8.3     *9.6     *7.5    *6.9
                                        64       29        48       59       51     910
       Supplier Representative          5         0        4        6        0       2
                                       *6.7      0.0      *5.7     *6.8     *0.O    *2.9
                                        32       o*        21       27       0      140
       Director of Nursing             56        18        44       17       40      21
                                      *15.2     *11.4    *14.3     *1O.7    *14.3   *8.3
                                       356       75       236       78       289    1471
       Nurse/Nursing Facility          29        41       26        43       16      39
       Attendant                      *13.9     *14.5    *12.7     *14.2    *1O.7   * 10.0
                                       184       170      140       197      116    2731
       Wound Care Specialist           22        14        13       9        2       12
       Contracted by Nursing          *12.7     *10.3     *9.7     *8.2     *4.1    k6.6
       Facility                        140       58        70       41       14     840
        Inventory Supervisor            7        5         4         0       2       3
                                       *7.8     *6.4      *5.7      +0.0    k4.1    *3.5
                                        45       21        21        0       14     210
        Other (please specify)         15        18        9        30        11     18
                                      *10.9     *11.4     *8.3     *13.1     *9.1   *7.9
                                       95        75        48       137       80    1261
        No Response                   o        0        0            0        2       1
                                     *0.O     *0.O     *0.O         *0.O     *4,1   *2.O
                                      o        0        0            0        14     70
        more than one answer was selected by some respondents




                                                D-8

12.   How are the wound care supplies initially ordered?

                                     .,+b”...   .,”~.:     .g+     ., *.    “: “,



       Nursing facility contacts      78         91         76       85               69     80
       supplier                      +12.7      *8.5       *12.3    *1O.2           *13.5   *8.2
                                      496       377         408      388             499    5602
       Supplier is told of need        7           5        9         13             7       5
       when supplier                  *7.8       *6.4      *8.3      *9.6           *7.5    *4.5
       representative or delivety      45         21        48        59             51     350
       person visits
       Supplier suggests wound         7          5         4         2              4       3
       care supplies would be         *7.8       *6.4      *5.7      *4.O           *5.7    *3.5
       appropriate for certain         45         21        21        9              29     210
       patients
       Other (please speeify)          12         7         20         9             16      16
                                      *9.9       *7.5      *11.6     *8.2           *10.7   *7.5
                                       76         29        107       41             116    1120
       No Response                   o        0        2              2              7       2
                                    *0.O     *0.O     *4.O           *4.O           *7.5    *2.9
                                     o        0        11             9              51     140
      * more than one answer was selwted by some respondents




                                                D-9

13.	   At which stages of a pressure ulcer, do you use Medieare-reimbursed wound care supplies on
       patients?

                                                                                          L
                 . . :‘Wqx&?             : .“CA”         *;’”      .’ ‘K,         m.          m          ..Cfl’HER
                                                                                                              .,. ..

        Stage    I                             2         7            7           4            4             11
                                              *4.3      *7.5         *7.4        ~5.6         *5.7          *6.4
                                               13        29           38          18           29           770
        Stage II                               12        20          24           15           27           30
                                              *9.9      +11.8       *12.3        *1O.2        *13.0        *9.4
                                               76        83          129          69           195         2101
        Stage 111                              76        64          52           36           60            63
                                             *13.1      +14.2       *14.4        *13.7        *14.3         *9.9
                                              483        265         279          165          434          4412
        Stage IV                               59        43          37           60           38           48
                                              *15.1     *14.6       *14.O        *14.O        *14.2        *10.2
                                               375       178         199          274          275         3361
        Other (please specify)                 12        18          28           36            13           20
                                              *9.9      *11.4       *13.O        *13.7         *9.8         *8.2
                                               76        75          150          165           94          1401
        No Response                             5        18          15            4            9            10
                                               *6.7     *11.4       *10.3         *5.6         *8.4         *6.1
                                                32       75          81            18           65          700

       * more than one answer was selected by some respondents


SupplierMarketing Practices




14.    Have supplier representatives ever tried to market their wound care products directly to
       patients?

                                                                             !       . ..... . . . .... ,. ... ,., ., -i
                 “::
                   ~;:;~g&’:.;
                ,.,.                         “: *::;;
                                 ::;, ,, “.;:;:             ,,, , ‘:,“:iti”:’”.,“:N+,,.’“
                                                          “%:::::.    . . ~~ .
                                                                     ....                    ., ‘lx:.,
                                                                                                    ‘ , “’“Q**’
         Yes                                     2        9            4            4           9             5
                                               i4.3      *8.5         *5.7         *5.6        *8.4          *4.5
                                                13        37           21           18          65           350
         No                                     98        89           93           96           89           95
                                               *4.3      *9.2         *7.4         *5.6         *9.1         *4.5
                                               623       368          499          439          643          6653
         No Response                            o         2            2            0            2            0
                                               *0.O      *4.1         *4.O         *0.O         *4.1         *0.O
                                                o         8            11           0            14           0




                                                        D-10
15.	          Have supplier representatives ever helped you determine which patients in your facility qualify
              for Medimre reimbursement of wound care supplies?

                                ,&s@l$~;      “. ~ ~   c~ “        “
              [“’                                                                        45         29         32
                                                        22         25      24
                Yes                                                                     ~14.2      *13.3      *9.5
                                                       *12.7      *12.8   *12.3
                                                                                                    210       2241
                                                        140        104     129           206
                                                                                         55         69	        67
                                                        78         73         76
                No                                                                      *14.2      *13.5      *9.6
                                                       *12.7      *13.1      *12.3
                                                                                         251        499       4692
                                                        496        302        408
                                                                                          0          2          1
                                                         o          2         0
                NO Response                                                              *0.O       *4.1       *2.O
                                                        *0.O	      *4.1      *0.O
                                                                                          0          14         70
                                                         0          8         0


  16.	         Have supplier representatives ever attemptd to help you determine which Medimre-eligible
               patients in your facility need various wound care supplies?
                                                 ,.          .\..:,. . .               :.*:. ; @?%~_
                                                 ““.;.:,* ~~ ~“’”.‘;“:“,~v’     ~“   “
                         ‘ R@”@:m~~ ‘.”’ :’.::~! “’,             ‘“
                                                                                19       22      36
                                                      20        36        22
                 Yes                                                                   *12.1    *9.8
                                                     *12.2   *14.2       *12.O *11.2
                                                                                         159    2521
                                                     ,127       149       118   87
                                                                                 81       76     63
                                                       80        61        78
                 No                                                                     *12.5    *9.9
                                                     *12.2    *14.4      *12.O *11.2
                                                                                370      549    4412
                                                      509       253       419
                                                                                  0        2      1
                                                        o         2         0
                  No Response                                                   *0.O     *4.1    *2.O
                                                      *0.O	     *4.1      *0.O
                                                                                  0        14     70
                                                        0          8        0


       17.	      Have supplier reprmentatives ever attempted to help you determine if patients not eligible for
                 Medicare need various wound care supplies?

                  ~:..,,.
                     .,,,... ,.:‘::
                                 ::.:.
                                    .::,,.
                        ...,.. ..:,.,.. .:,
                                                                                            21          13        25
                                                           17         23         20
                      Yes                                                                  *11.6       *9.8      *8.8
                                                          *11.5      +12.4      *11.6
                                                                                            96          94       1751
                                                           108        95         107
                                                                                            77         84         73
                                                           83         75         80
                      No                                                                   *12.O      *1O.7      *9.1
                                                          *11.5      *12.8      *11.6
                                                                                            352        607       5112
                                                           528        311        430
                                                                                             2          2             2
                                                            o          2          0
                       No Response                                                          +4.0       *4.1          *2.9
                                                           +0.0       *4.1       *0.O
                                                                                             9          14           140
                                                            0          8          0




                                                                     D-11

18.	   Have you ever been offered inducements by suppliers such as free products to allow them to
       provide wound care supplies to your patients?



        Yes                             15       23         7       4        22         13
                                       *10.9    *12.4      *7.4    ~5.6     *12.1      *6.9
                                        95       95         38      18       159       910
        No                              85        75        89      96        73       86
                                       *10.9     *12.8     *9.O    *5.6     *13.O     *7.1
                                        541       311      478     439       528      6023
        No Response                      o        2         4       0         4          1
                                        +0.0     *4.1      *5.7    *0.O      *5.7      *2.O
                                         o        8         21      0         29        70


       If yes, please describe the nature of such inducements.




19.	   Has a supplier ever provided you with the necessary prescription forms to be filled out by your
       facility’sphysician or the patient’s family physician?



                                                   9        15      34        11        8
                                                  *8.5     *1O.3   *13.5     *9.1      *5.5
                                                   37       81      155       80       560
                                                   91        83     66        84        91
                                                  *8.5     ilo.9   *13.5     *1O.7     *5.8
                                                  377       446     302       607      6373
                                                   0         2       0         4         1
                                                  *0.O	     *4.O    *0.O      *5.7     *2.O
                                                   o         11      0         29       70




                                                D-12

20.	    Has a supplier ever filled out the prescription form and presented it to you for the physician’s
        signature?
        .                                                                                                                       t
                            Rafiiti .“.                      “: .::+.,           ,        ~       ,   . .....lL’.    yi      “.~~     m:, i?qim:
            Yes                                                    2                        5             7          21               9                7
                                                                  *4.3                    *6.4           *7.4       +11.6            *8.4             *5.2
                                                                   13                      21             38         96               65              490
             No                                                    90                      95             91         77               87               92
                                                                  *9.2                    *6.4           *8.3       *12.0            *9.8             *5.5
                                                                  572                     393            489         352             629              6443
             No Response                                           7                       0              2           2               4                  1
                                                                  *7.8                    *0.O           *4.O        *4.O            *5.7              *2.O
                                                                   45                      0              11          9               29                70



21.	        Does the supplier representative decide the number of supplies to be delivered in a given
            month?
                                                            ,,,...,.,.. ... .                                                                       ‘ti&ti,
                       : “+&&&i:             ::;..:”:,:.;;~.“, .:,,~.     :;..       ,:   .,~:
                                                                                                          .;~’.      ,,Ny.     .’: .+           “’” .,.,...
             Yes                                                    7                       11            24         34               22                24
                                                                   *7.8                    *9.2          *12.3      *13.5            *12.1             *8.7
                                                                    45                      46            129        155              159              1681
             No                                                     90                      89            70          60              71                73
                                                                   *9.2                    *9.2          ~13.2       *14.0           *13.3             *9.1
                                                                   572                     368            376         274             513              5112
             No Response                                             2                      0              7           6                7                3
                                                                    *4.3                   *o<o           *7.4        *6.8             *7.5             *3.5
                                                                     13                     0              38          27               51              210


 22.	       Have you ever been told by a supplier that Medicare requires the use of certain types of
            products on patients suffering from wounds?
                 ::..:, ..,..,,.
                              ,,:,,.....;.....:,,.:..’:::
                                                    ..... ...: ...’.
                                                                  ‘..,..’
                                                                      ,.;.,,:+..:.:
                                                                         . .,:::,. ; ..,. ., .:..:....’. ,...?.:...
                                                                                                                 .:.”. .. >.:.                         .... ..,.,,.
                                                                                                                             ::.:.’.’,.,“.,,...,.,, ..“,p~k.”:
             :..........““:’::
                        :::
             ,,.,...,,::...,..,
                          , .:.:,.. <.:..Qg&&g,..;:       >j,:; ,.{,:::;::
                                       ,,:,,., ,,,,,, . ..,,.         .,, :::::~:,:~ , ;~: .:, .,: jq+:, : ,, ~:          .,,,,,. ,.\ ;..:&::’.,,,        .,,.,,,
              Yes                                                    2                      20              9           4               13                8
                                                                    *4.3                   *11.8           *8.3        *5.6            *9.8              *5.5
                                                                     13                     83              48          18              94               560
              No                                                      95                   80               91          96              84               90
                                                                     *6.7                 +1108            *8.3        *5.6            *1O.7            *6.1
                                                                     604                   331             489         439              607             6303
              No Response                                             2                        0             0          0                2                2
                                                                     *4.3                     *0.O          *0.O       *0.O             k4.1             *2.9
                                                                      13                       0             0          0                14              140



                                                                                          D-13

23.	   Have you ever been told by a supplier that Medicare requires the use of wound care@                              on
       Medieare beneficiaries?

                                                                                                        j &’~~     ;
                 &spanie   , . . “: :.      . ‘cl!.,..”””
                                              ....     :.. $.:.:,       ,.IL.;.   ,, r.iy   ..~. ‘..&
        Yes                                  5           16              7           4           11         12
                                            *6.7        *1O.8           *7.4        *5.6        *9.1       *6.6
                                             32          66              38          18          80        840
        No                                   95          82              93          %          82          87
                                            *6.7        *11.4           *7.4        *5.6       *11.2       *6.9
                                            604          339            499         439         593        6093
        No Response                           o           2              0           0           7           1
                                             *0.O        *4.1           *0.O        *0.O        *7.5       *2.O
                                              o           8              0           0           51         70



24.	   Has a supplier ever told you that wound care supplies will be provided to Medicare
       beneficiaries at no cost to the patient?
                                                                    ,
               ““:$&@.&e     “;”..;., :;,   :   “e&:       ““’““’‘
                                                          ‘fi&
                                                                            ‘:”..NY:
                                                                ‘.’? .“.:’i&.’                 ,‘q...    ..dii%ii,:
                                                                                                             ........
        Yes                                  32          27              28          13          22         29
                                            *14.3       *13.1           *13.0       *9.6        *12.1      *9.3
                                             204         112             150         59          159       2031
        No                                   68          73              72         83            69        68
                                            *14.3       *13.1           *13.O      *1O.7        *13.5      *9.5
                                             432         302             387        379          499       4762
        No Response                              o        0              0           4           9           2
                                                *0.O     *0.O           *0.O        *5.6        *8.4        *2.9
                                                 o        0              0           18          65         140



25.    Is the same basic wound care kit provided to every Medicare beneficia~ in your nursing home?



         Yes                                  22          36             22          13          24          25
                                             *12.7       *14.2          *12.O       ~9.6        *12.5       *8.8
                                              140         149            118         59          174        1751
         No                                    63         45             59          72           51        55
                                             *14.8       *14.7          +14.2       *12.8       *14.6      *1O.2
                                              401         186            317         329         369       3852
         No Response                          15          18             20          15          24          20
                                             *10.9       *11.4          *11.6       *1O.2       *12.5       *8.2
                                              95          75             107         69          174        1401



                                                       D-14

26.	   Has a supplier ever suggested that a standard number of wound care trays or kits per day (e.g.
       three per day) should be used?



                                          ‘“ii:     “;  .’”?!-’’
                                                          ;.:                                      =:_~~=.
        Yes                                 7                  9           17          6            18          12
                                           *7.8               *8.5        *10.9       i6.8         *11.2       *6.6
                                            45                 37          91          27           130        840
        No                                   90                91           80         87           73          85
                                            *9.2              *8.5        *11.6       *9.6         *13.O       *7.3
                                            572               377          430        398           528        5953
        No Response                          2                 0            2          6            9           3
                                            *4.3              +0.0         *4.O       *6.8         *8.4        *3.5
                                             13                0            11         27           65         210    1




27.	   Have you ever been told by a supplier that Medicare will cover routine supplies such as saline
       solution if gauze or speeialty dressings are purchased?

                                              ‘~;.;      .,
               ::<. ‘@+&i+e”:;:::
                           ::;‘:: :: “:   “:..,,, ,.,          i+    .,’:;”: :.IL“:.; ‘:: Ni::::   .~’” ; “.   W!@’.
         Yes                                 10                14           7           2           16          11
                                            *9.2              *1O.3        *7.4        *4.O        *10.7       *6.4
                                             64                58           38          9           116        770
         No                                  90                86           93          94          76          86
                                            ~9.2              *10.3        *7.4        *6.8        *12.5       *7.1
                                            572                356         499         430          549        6023
         No Response                          o                0            0           4            9          3
                                             *0.O             *0.O         *0.O        ~5.6         *8.4       *3.5
                                              o                0            0           18           65        210




                                                          D-15
28.	   Do your suppliers routinely waive the 20 pereent copayment required of Medicare
       beneficiaries?


       r

                     ReSFWC       :    .            ,“””m ..”    IL

            Yes                             2          0         9       0         9         2
                                           *4.3       *oco      *8.3    *0.O      *8.4      *2.9
                                            13         0         48      0         65       140
            No                              29        45         15      43        27        33
                                           *13.9     *14.7      *10.3   *14.2     *13.O     *9.6
                                            184       186        81      197       195      2311
            Do Not KtlOW                    44        45         70      55        47        58
                                           +15.2     *14.7      *13.2   *14.2     *14.6     *1O.1
                                            280       186        376     251       340      4062
            No Response                     24         9         7        2        18         8
                                           *13.1      *8.5      *7.4     *4.O     *11.2     �5.5
                                            153        37        38       9        130       560



29.	       Has a supplier ever provided a wound care specialist or specialty nurse to assist you in patient
           care or in developing a treatment plan?




            Yes                             41         39        22      36        31        37
                                           *15.1      *14.4     *12.O   *13.7     *13.5     *9.9
                                            261        161       118     165       224      2591
            No                               59        59        74       60       62         62
                                            *15.1     *14.5     *12.7    *14.0    *14.2      *9.9
                                             350       244       397      274      448       4342
            No Response                      o          2         4       4         7          1
                                            *0.O       *4.1      *5.7    *5.6      *7.5      *2.O
                                             o          8         21      18        51        70




                                                     D-16
30.   Has a supplier ever offered training to your staff concerning the treatment and care of wounds?

                                                                                I
                                               ‘“J?L. “,       .. .. :%         ‘“.           z%.     OTHER

       Yes                             68       68               63                    72       51     73
                                     *14.3     *13.8           *14.0                  ~12.8   *14.6   *9.1
                                      432       282             338                    329     369    5112
       No                             32        30              35                     28      42      25
                                     *14.3     *13.5           +13.8                  *12.8   *14.4   *8.8
                                      204       124             188                    128     304    1751
       No Response                     o         2                2                    0       7        2
                                      *0.O      *4.1             *4.O                 *0.O    *7.5     *2.9
                                       o         8                11                   0       51      140



31.   How does your staff become aware of new wound care products that might benefit your
      patients?
                                                           -
                                                           ““’   ‘i;      .;’

                                        56       57               54                   68       58     71
                                      *15.2    *14.6            *14.4                 *13.3   *14.4   *9.3
                                       356      236              290                   311     419    4972
       TrainingKlmferenees             59        55              41                    60      44      42
       offered by suppliers           *15.1    i14.7            *14.2                 *14.O   *14.5   *1O.1
                                       375      228              220                   274     318    2941
       Medieal journalsfliterature     68       68                57                   83      49      61
                                      *14.3    *13.8            *14.3                 *1O.7   *14.6   *1O.O
                                       432      282              306                   379     354    4272
       Training provided by            59       61                41                   62       36     47
       mediealhursing                 *15.1    *14.4            ~14.2                 *13.9   *14.0   *10.2
       associations                    375      253              220                   283     260    3291
       Other (please specify)          20       23               20                    23      20       24
                                      *12.2    *12.4            *11.6                 *12.O   *11.7    *8.7
                                       127      95               107                   105     145     1681
       No Response                  0        2        7
                                   *0.O     *4.1    *7.4
                                     0       8       38
        more than one answer was Jetted by some re @iiiEii




                                              D --17

32.    Have supplier representatives ever requested to review patient medical records?


                                                                                         t
                  B“&aIise “. .: :       :   ;,c~
                                             :..., : “. “..:7L;’”
                                                        ,.       .’~i.,’”,:      ,- ,,       ‘lx     o’@ER
        Yes                                    12           16        13          47         11       20
                                              *9.9         *1O.8     *9.7        *14.3       &9.1    *8.2
                                               76           66        70          215        80      1401
        No                                     88           82       83           51           84     80
                                              *9.9         *11.4    *10.9        *14.3       *10.7   *8.2
                                              560           339      446          233         607    5602
        No Response                            o            2         4           2           4        0
                                              *0.O         *4.1      *5.7        *4.O        *5.7     *0.O
                                               o            8         21          9           29       0

       If yes, for what reason?




33.	   Have supplier representatives ever suggested how medical records should be documented to
       support the need for wound care supplies?

                                             ..~.,   .’   +&
       ,.
                 R+*+        ‘“ .’”:.,                             .“.,i. .: :
        Yes                                    12           25        9           17          20       17
                                              *9.9         *12.8     *8.3        *1O.7       *11.7    *7.7
                                               76           104       48          78          145     1191
        No                                    85            75       85           81          73       76
                                             *1O.9         *12.8    *1O.3        *11.2       *13.0    *8.7
                                              541           311      456          370         528     5322
        No Response                            2            0         7           2           7        7
                                              *4.3         +0.0      *7.4        *4.O        *7.5     *5.2
                                               13           0         38          9           51      490




                                                          D-18
34.    How many different suppliers provide you with wound care supplies for your patients?



        Number of Suppliers             1.6     2.0        1.4     1.7         1.5    1.7
                                       *0.4     *0.7      *0.3     *0.3       *0.4    +0.2



35.	   Please list the names, addresses, and phone numbers of the suppliers who provide your facility
       with the majority of wound care supplies for your patients?




36.    Are wound care supplies marketed to you in kits or as bulk supplies?



         Both Kits and Bulk                      30        26       26         31      37     I
                                        32
         Supplies                      *14.3    *13.5     *12.7    +12.5      *13.5   *9.9
                                        204      124       140      119        224    2591
         Wound Care Kits                20       16        22        9         20       7
                                       *12.2    +10.8     *12.O     *8.2      *11.7    *5.2
                                        127      66        118       41        145     490
         Bulk Supplies                  32       34        39       43          29     39
                                       *14.3    *14.0     *14.1    *14.2      *13.3   *1O.O
                                        204      141       209      197        210    2731
         Other (please specify)          12        5        4        11        7        10
                                        *9.9     *6.4      *5.7     *8.9      k7.5     *6.1
                                         76       21        21       50        51      700
         No Response                     5        16        9        13        13       8
                                        *6.7     *1O.8     �8.3     *9.6      *9.8     *5.5
                                         32       66       48        59        94      560




                                               D-19

37.         Are wound care supplies shipped to you in kit or bulk form?

                                                .&::          :$$,.,       “.   “iii “.       ..NY ,
                                                          —                —              —
                                                                                22             21          31        29
             Both Kits and Bulk                 29             23
                                                              *12.4            *12.O          +11.6       *13.5     *9.3
             Supplies	                         *13.9
                                                                                118            96          224      2031
                                                184            95
                                                               7                 22            6           20        5
              Wound Care Kits                    12                                                                 *4.5
                                                              *7.5              *12.O         *6.8        *11.7
                                                *9.9                                                                350
                                                 76            29                118           27          145

                                                                                 39            45          31        48
              Bulk Supplies                      44            41
                                                              *14.5             *14.1         *14.2       *13.5     *1O.2
                                                +15.2
                                                                                 209           206         224      3361
                                                 280           170
                                                                7                2              13          4         9
              Other (please specify)              7                                                                  *5.8
                                                 *7.8          *7.5             *4.O           *9.6        *5.7
                                                                                 11             59          29       630
                                                  45            29
                                                                                 15             15          13        9
              No Response                          7            23
                                                               *12.4            *1O.3          *1O.2       *9.8      *5.8
                                                  *7.8
                                                                95               81             69          94       630
                                                   45




  38.        When   delivered by the supplier, are wound care kits or supplies marked or identified as being
              intended solely for a particular patient?

                       “~‘Risliie::
                            ::”:.’;““’”’:
                                     ““:.:*:’: :@””” :~:”:’””
                                                       [
                                                         “
                                                                27                35             51         33        37
               Yes                                 32                                                                *9.9
                                                  *14,3        *13.1             *13.8          *14.3      *13.7
                                                                112               188            233        239      2591
                                                   204
                                                                 59               50             34          49       54
                No                                 59
                                                                i14.5            *14.4          *13.5       *14.6    *1O.2
                                                  *15.1
                                                                                  269            155         354     3782
                                                   375           244
                                                                 14                15            15          18        9
                NO   Response	                          10                                                            *5.8
                                                                *1O.3             *1O.3         *1O.2       *11.2
                                                       *9.2
                                                                 58                81            69          130      630
                                                        64




      39.      If suppliers market or ship wound care kits to your facility, what supplies are typimlly
               ~ntained in a kit?
                                                                                                                                7
                                                                                                 “tW         ,*;; :,“::@~& ,.
                                               ‘: “&”:
                            @+&risk;:”: ‘;:;:”’““:.:
                        .“:,;.:                      ..:..     “.“ik””           :’~c”:.
                                                                  100                60            85         83        75
                 Provided Information                   76
                                                                       0             40              15       17           25
                 Did Not Provide                        24
                 Information


                                                          --mm---
40.	   If suppliers market or ship wound care kits to your facility, do you typically use all of the
       supplies within those kits?


                                                                               ZzIEiiE
        Yes                              34        27         35                     40      32
                                        *14.5     *13.1      *13.8                  *14.3   *9.5
                                         216       112        188                    289    2241
        No                                 7       16         17        11           22      15
                                         *7.8     *10.8      *1O.9     *8.9         *12.1   *7.3
                                          45       66         91        50           159    1050
        No Response                       59       57          48       62            38     53
                                        *15.1     *14.6      *14.4     *13.9        *14.2   *10.2
                                         375     +
                                                   236        258       283          275    3712

       If no, what supplies are typically not used?



        Provided Information             33           71      38        20           50      43
        Did Not Provide                  67           29      63        80           50      57
        Information


41.	   Have you ever asked a supplier to make equipment changes, such as removal or addition of
       products, in their standard wound care kit?

               ,.
                ““’::l+-&& ;{’:;::                                     ..
                                                                       ...
                                                                        ..
                                        ““@~””     it’:.’””’“’;:iL‘.
                                          ,, ‘ .:.”’”                   *.”     :’ti.... ‘@iiER’
                                                                               “:             ::
        Yes                               12       16          11       15           7       17
                                         *9.9     *1O.8       *9.O     *1O.2        *7.5    *7.7
                                          76       66          59       69           51     1191
        No                                61       57          59       45            76     55
                                        *14.9     *14.6      *14.2     *14.2        +12.5   *10.2
                                         388       236        317       206          549    3852
        No Response                      27        27         30        40            18     27
                                        *13.6     *13.1      *13.2     *14.0        *11.2   *9.1
                                         172       112        161       183          130    1891

       If yes, what changes did you request?



        Provided Information             100          86      100       100         100      81
        Did Not Provide                   o           14       0         0           0       19
        Information




                                                 D-21

      If yes, did the supplier make the changes?


                                                _ :.?%:    _

       Yes                               12         11          9       11         7       15
                                        *9.9       *9.2        *8.3    *8.9       *7.5    *7.3
                                         76         46          48      50         51     1050
       No                                o           5          0       6          0       3
                                        *0.O       *6.4        *0.O    *6.8       *ooo    *3.5
                                         o          21          0       27         0      210
       No Response                       88        84           91      83         93      82
                                        *9.9      *1O.8        *8.3    *10.7      *7.5    *7.9
                                        560        348         489      379       672     5742


42.   Do suppliers provide you with all the neeessary wound care supplies for each patient once a



                                                                        NY”,“.   :“Ty;:6*’”:
       Yes                          [    37         25          37      49         51      39




                                                 &
                                        *14.8      h12.8       *14.0   *14.3      ~14.6   *1O.O
                                         235        104         199     224        369    2731
       No                                 46        45          41      30         27      37
                                        *15.3      *14.7       *14.2   *13.1      *13.O   *9.9
                                         293        186         220     137        195    2591
        No Response                      17         30          22      21         22      24
                                        *11.5      *13.5       *12.0   +11.6      *12.1   *8.7
                                         108        124         118     96         159    1681

      If no, how are supplies provided by the supplier?



        Provided Information             74         67          78      79         50      79
        Did Not Provide                  26         33          22      21         50      21
        Information




                                                 D-22

43.   How are wound care supplies stored in your nursing facility?




                                    z
                                                                             .ti,.    ZiiiiEl
       Stored by individual              15          27       24      36       13      29
       patient assignment in            *1O.9       *13.1    *12.3   *13.7    *9.8    *9.3
       supply room                       95          112      129     165      94     2031
       Stored in general supply          78          66        70     47      78       66
       room                             *12.7       *14.O    *13.2   *14.3   *12.1    *9.7
                                         4%          273      376     215     564     4622
       Stored by the patient’s           0            0       0       6        0        2
       bedside                          *0.O         *0.O    *0.O    *6.8     *0.O	    *2.9
                                         o	           0       o       27       o       140
                                                I

       Other (please speeify)            10           14      9       13       9        11
                                        *9.2         *1O.3   *8.3    *9.6     *8.4     *6.4
                                         64           58      48      59       65      770
       No Response                     7        11       2             9       9        4
                                      *7.8     *9.2     *4.O         *8.2     *8.4     *4.O
                                       45       46       11           41       65      280
                                    +
        more than one answer was     ected by some rt pondents


44.   What happens to unused or excess supplies?
                                    .
                                    &
                                         12           20      24       53 ~ 16
        35
                                        *9.9         *11.8   *12.3   * 14.3 *1O.7     *9.7
                                         76           83      129     242    116      2451
       Stored for future use by          20           14      24      17       16       26
       specific patient                 *12.2        *1O.3   *12.3   *10.7    *1O.7    *9.O
                                         127          58      129     78       116     1821
       Stored and used as needed          56          36      33      17        40      32
       for all patients                 *15.2        *14.2   ~13.6   *1O.7    *14.3    *9.5
                                         356          149     177     78       289     2241
       Other (please speeify)            15           27      13      13       16       12
                                        *10.9        *13.1   *9.7    *9.6     *1O.7    *6.6
                                         95           112     70      59       116     840
       No Response                 7      16       9      17                   18       9
                                  *7.8   *10.8    *8.3   *10.7                *11.2    *5.8
                                   45     66       48     78                   130     630
        more than one answer was XZi&Tl some respondents




                                                    D-23

47.    Do you have written or verbal agreements with your wound care suppliers?


                                                                     — NY     w, \ Cyi@Z
                                          12       32                 34      20      26
                                         *9.9     *13.8              *13.5   *11.7   +9.0
                                          76       132                155     145    1821
        Yes (verbal)                      10       2         15       21      4       4
                                         *9.2     *4.1      *1O.3    +11.6   *5.7    +4.0
                                          64       8         81       96      29     280
        No                                66        59        61      38       60     59
                                        *14.5     *14.5     *14.1    *13.9   *14.3   *1O.1
                                         420       244       328      174     434    4132
        No Response                       12       7         7         6      16      11
                                         *9.9     *7.5      *7.4      *6.8   *10.7   *6.4
                                          76       29        38        27     116    770

       If yes, please describe the nature of such agreements.




        Provided Information             67        60           60    81      55      71
        Did Not Provide                  33        40           40     19     45      29
        Information



48.	   Have you ever complained to Medicare or other authorities about the marketing or business
       practices of any wound care suppliers?



        Yes                               o         0        2         2      9       4
                                         *0.O     *0.O      *4.O      *4.O   *8.4    *4.O
                                          o        0         11        9      65     280
        No                                90        95       93        94     89      93
                                         *9.2      *6.4     *7.4      *6.8   *9.1    *5.2
                                         572       393      499       430    643     6513
        No Response                       10         5       4         4      2       2
                                         *9.2      *6.4     *5.7      *5.6   *4.1    *2.9
                                          64        21       21        18     14     140




                                                D-25
        If yes, what was the nature of these practices?




Thank you for completing this survey. If you have additional comments or would like to answer any of the
questions more jh[ly, please use the nert page marked Additional Comments for thir purpose. Please return
the survey ti the self-addressed postage-paid envelope we included in our mailing to you or fm the survey
and any additional information to us at (215) 596-6987.




                                                 D-26

